                                          January 23, 2007




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum/RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S BADGE ACCESS SYSTEM
                            (OIG-07-A-10)


Attached is the Office of the Inspector General’s (OIG) report titled, Audit of NRC’s
Badge Access System.

This report presents the results of the subject audit. Agency comments provided at the
exit conference on December 19, 2006, have been incorporated, as appropriate, into
this report. The agency did not provide formal comments.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915, or Beth Serepca at 415-5911.

Attachment: As stated
ELECTRONIC DISTRIBUTION

Frank P. Gillespie, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Luis A. Reyes, Executive Director for Operations
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
 State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
 and Administration and Chief Information Officer, OEDO
Michael R. Johnson, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
 and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
R. William Borchardt, Director, Office of New Reactors
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                     AUDIT REPORT


                    Audit of NRC’s Badge Access System

                      OIG-07-A-10       January 23, 2007




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                                  Audit of NRC’s Badge Access System



I.   EXECUTIVE SUMMARY

         BACKGROUND

         The Nuclear Regulatory Commission’s (NRC) automated badging
         and card reader system is an important component of the agency’s
         physical security program. NRC uses the system to manufacture
         photo-identification badges for employees, contractors, and visitors
         and control their access within NRC’s headquarters, regional
         offices, and the Technical Training Center (TTC). NRC refers to its
         system as the Access Control and Computer Enhanced Security
         System/Photo Identification Computer System (ACCESS/PICS).
         In this report, the system is referred to as ACCESS, and NRC
         regional offices and TTC are referred to as field offices.

         PURPOSE

         The objective of this audit was to determine whether the current
         badge access system meets its required operational capabilities
         and provides for the security, availability, and integrity of the system
         data.

         RESULTS IN BRIEF

         NRC’s badge access system is capable of providing effective
         support for NRC’s physical security program. However, specific
         cost-effective actions are needed to enhance this legacy system’s
         usage at NRC until a replacement system is implemented. Auditors
         identified the following shortcomings with regard to ACCESS and
         related badge accountability processes:

               Weaknesses exist concerning system user access.
               The system contains inaccurate data.
               Badge accountability measures are inadequate.
               System documentation is incomplete or missing.
               TTC lacks a backup power supply for ACCESS.

         These problems exist because concerns about ACCESS are
         overshadowed by the agency’s plan to replace the system as part
         of its Homeland Security Presidential Directive -12 (HSPD-12)
         solution. Left unaddressed, these weaknesses undermine the
         effectiveness of NRC’s physical security approach to control access
         into and within NRC facilities.




                                     i
                                        Audit of NRC’s Badge Access System



Weaknesses Exist Concerning User Access

ACCESS does not fully employ required user access controls.
Specifically, in headquarters and a field office, several people share
one user identifier (ID), 2 of 11 headquarters users have
inappropriate access to the system, and a majority of the
headquarters users have been granted the highest level of system
access. Noncompliance with agency requirements has occurred
because there is no routine review of the user access, limitations
exist with one site’s version of ACCESS, and NRC staff cannot
easily define or differentiate the difference among ACCESS user
roles. Without adequate user access controls, security information
is vulnerable to errors or misuse.

System Contains Inaccurate Data

ACCESS contains inaccurate data pertaining to special access
areas and the current employee population. These data
inaccuracies exist because NRC does not impose effective quality
assurance measures over access lists or system data. Without
accurate information, there is the possibility of security breaches
and ineffective control over special access areas.

Badge Accountability Measures Are Inadequate

NRC lacks adequate control over temporary badges issued to staff
and visitors, and over badges issued to contractors. Specifically,

¾ Temporary badges loaned to staff who forget or lose their badge
  are not always returned the day they were issued.
¾ Temporary visitor badges are not inventoried and accounted for
  on a daily basis at headquarters and three field office sites.
¾ Contractor badges are not always retrieved promptly or
  deactivated once it is determined a particular contractor is no
  longer working for NRC.

Temporary and contractor badges are not always returned promptly
because the agency has not asserted measures to enforce these
requirements. Daily reconciliation of visitor badges is not
performed at headquarters or several NRC field offices because
NRC has not enforced this requirement. These weaknesses
increase NRC’s risk that temporary and contractor badges will be
misused to gain unauthorized access into NRC facilities.




                           ii
                                                                Audit of NRC’s Badge Access System



                System Documentation Is Incomplete or Missing

                NRC has not adhered to agency listed system security
                requirements for ACCESS or followed up on penetration testing
                results. This is because the agency has not viewed fulfillment of
                these requirements as a priority given that (1) ACCESS is a legacy
                system unlikely to attain certification and accreditation1 and (2) a
                Government-wide interoperable solution is expected to replace
                ACCESS in FY 2009. Without following security requirements,
                NRC has limited assurance that ACCESS is adequately protected
                against unauthorized access or other misuse. In addition, ACCESS
                system owners and users are unable to locate relevant information
                when needed.

                TTC Lacks Backup Power Supply

                TTC’s card reader contingency plan in the event of a power failure
                is workable, but causes unnecessary security risks. Under this
                plan, each employee is assigned a metal key that unlocks doors
                that are also controlled by ACCESS card readers. By replacing the
                metal keys assigned to each TTC employee with a backup power
                supply to support ACCESS in the event of a power failure, NRC
                can reduce the chance that keys will be lost and used to gain
                unauthorized access to TTC facilities. In addition, reliance on the
                card readers will allow a more accurate record of access within
                TTC facilities.

                RECOMMENDATIONS

                This report makes 17 recommendations to better ensure that
                ACCESS meets its operational requirements. A consolidated list of
                recommendations appears on pages 28-29 of this report.

                AGENCY COMMENTS

                At an exit conference held December 19, 2006, agency managers
                agreed with the audit findings and recommendations and provided
                comments concerning the report. We modified the report as we
                determined appropriate. NRC opted not to submit formal written
                comments to this final version of the report.




1
 Certification is the comprehensive evaluation of a system’s security features and other
safeguards that establishes the extent to which a particular design and implementation meet a
specified set of security requirements. Accreditation grants the system sponsor the authority to
operate the system based on the certification process and other considerations.
                                                iii
                             Audit of NRC’s Badge Access System




[Page intentionally left blank.]




               iv
                                         Audit of NRC’s Badge Access System



ABBREVIATIONS AND ACRONYMS

       ACCESS        ACCESS/PICS

       ACCESS/PICS   Access Control and Computer Enhanced
                     Security System/Photo Identification Computer
                     System

       C&A           certification and accreditation

       DFS           Division of Facilities and Security

       FY            fiscal year

       NRC           Nuclear Regulatory Commission

       HSPD-12       Homeland Security Presidential Directive – 12

       IATO          interim authority to operate

       ID            identifier

       ISSO          information system security officer

       IT            information technology

       MD            Management Directive and Handbook

       OIS           Office of Information Services

       TTC           Technical Training Center




                            v
                             Audit of NRC’s Badge Access System




[Page intentionally left blank.]




               vi
                                                                       Audit of NRC’s Badge Access System



TABLE OF CONTENTS


    EXECUTIVE SUMMARY.............................................................................. i

    ABBREVIATIONS AND ACRONYMS .......................................................... v

    I.      BACKGROUND ................................................................................... 1

    II.     PURPOSE............................................................................................ 4

    III.    FINDINGS ............................................................................................ 5

           A.   WEAKNESSES EXIST CONCERNING SYSTEM USER ACCESS ..................... 5
           B.   SYSTEM CONTAINS INACCURATE DATA .................................................. 10
           C.   BADGE ACCOUNTABILITY MEASURES ARE INADEQUATE........................... 15
           D.   SYSTEM DOCUMENTATION IS INCOMPLETE OR MISSING ........................... 20
           E.   TTC LACKS BACKUP POWER SUPPLY FOR ACCESS ................................ 25

    IV.     AGENCY COMMENTS ........................................................................ 27

    V.      CONSOLIDATED LIST OF RECOMMENDATIONS ............................ 28


    APPENDIX

           A.     SCOPE AND METHODOLOGY ..................................................... 31




                                                    vii
                             Audit of NRC’s Badge Access System




[Page intentionally left blank.]




              viii
                                                 Audit of NRC’s Badge Access System



I.   BACKGROUND

         NRC’s automated badging and card reader system is an important
         component of the agency’s physical security program. NRC uses
         the system to manufacture photo-identification badges for
         employees, contractors, and visitors and control their access within
         NRC’s headquarters, regional offices, and the TTC. NRC refers to
         its system as ACCESS/PICS. In this report, the system will be
         referred to simply as ACCESS, and NRC regional offices and TTC
         will collectively be referred to as field offices.

         Controlling Access

         NRC seeks to ensure that only authorized individuals have the
         freedom to travel unescorted within agency facilities. Individuals
         may be approved for unescorted access within NRC facilities
         following the successful adjudication of a background investigation.
         Approved individuals are issued NRC badges that are programmed
         to permit unescorted access within NRC facilities. NRC’s Division
         of Facilities and Security (DFS), within the Office of Administration,
         manages NRC’s background investigation and badging process.

         Unescorted access may be limited by time of day and location
         within the facility. For example, NRC employees are automatically
         allowed 24-hour access, while contractors are typically given
         access only during business hours. Furthermore, while most staff
         are afforded access only to NRC’s general access areas, some are
         additionally permitted entry to special access areas based on their
         specific needs. Special access areas are sections of NRC
         headquarters space – such as the headquarters day care center,
         the guard office, or Incident Response Operations – that have
         restricted access for prior approved individuals only.

         NRC also issues temporary badges to employees and visitors.
         Temporary badges assigned to employees are programmed to
         allow unescorted access within NRC facilities. The majority of
         temporary visitor badges are not programmed to allow passage
         beyond card readers because most visitors must be escorted by an
         NRC employee or other authorized individual while at NRC
         premises.




                                    1
                                        Audit of NRC’s Badge Access System



System Description

To gain access inside NRC facilities, individuals place their badges
against card readers that are positioned at various locations
throughout the buildings. Wiring connects the card readers to a
                                      host computer, which stores
                                      the access rights afforded to
                                      each badge holder and
                                      communicates back to the
                                      card reader whether access is
                                      allowed at a particular door. If
                                      access is permitted, the
                                      reader displays a green light
                                      and the door associated with
                                      the reader may be opened. If
                                      access is not permitted, the
                                      light turns red and the door
                                      remains locked.
                                      Headquarters has 181
                                      readers; the field offices have
                                      between 7 and 28 card
                                      readers each.
NRC headquarters card reader

Headquarters uses a different version of ACCESS than the field
offices; only the headquarters system manufactures badges
whereas all of the systems are used for access control. NRC
security guards at headquarters manufacture all headquarters and
field offices badges and program them for access to headquarters.
Field office badges are then sent to their respective locations where
they are programmed to allow access to the employee or
contractor’s duty station.

The ACCESS systems in headquarters and the field offices do not
communicate with each other, and none are connected to a
network.

System Data

The headquarters ACCESS system contains 6,409 records of
badges (includes employee, contractor, temporary, visitor, and
other badges) currently in use at NRC. Records for badges
assigned to individuals include social security numbers that are
needed for the badge manufacturing process. Field office systems
do not store social security numbers. Figure 1 depicts a breakdown
of NRC’s 6,409 badges by type. Table 1 provides a comparison of
the headquarters and field office systems.
                           2
                                                             Audit of NRC’s Badge Access System




                           Figure 1. NRC Badge Inventory, by Badge
                                        Type (N=6,409)

                         Temporary/
                         Visitor/Other
                              31%


                                                                  Employee
                                                                   Badges
                                                                    52%


                              Contractor
                               Badges
                                17%

                 Table 1. Comparison of Headquarters and Field Office
                 Systems

                  System Characteristic            Headquarters          Field Offices
                  Manufactures badges              Yes                   No
                  Stores social security           Yes                   No
                  number
                  Controls access                  Yes                   Yes
                  Connected to a network           No                    No
                  Badges allow                     Yes                   Yes
                  headquarters access
                  Badges allow access to           No                    Yes
                  field office2

                 NRC has categorized ACCESS as a “listed” system for information
                 security purposes. The term listed system refers to a computerized
                 information system or application that processes sensitive
                 information requiring additional security protections, and that may
                 be important to NRC office or regional operations.

                 Future Plans

                 The approximately 15-year old ACCESS system is a legacy
                 system, and NRC plans to replace it in FY 2009 (at the earliest) to
                 comply with HSPD-12. This directive, issued in August 2004,

2
    Regional access control systems can be programmed to recognize headquarters badges.
                                               3
                                                   Audit of NRC’s Badge Access System



          ordered the establishment of a mandatory Governmentwide
          standard for secure and reliable forms of identification to be issued
          by the Government to its contractors and employees. One of
          HSPD-12’s goals is that these identification badges be used for
          physical access to all Government facilities.


II.   PURPOSE

          The objective of this audit was to determine whether the current
          badge access system meets its required operational capabilities
          and provides for the security, availability, and integrity of the system
          data. Appendix A contains information on the audit scope and
          methodology.




                                      4
                                                                 Audit of NRC’s Badge Access System



III. FINDINGS

                NRC’s badge access system is capable of providing effective
                support for NRC’s physical security program. However, specific
                cost-effective actions are needed to enhance this legacy system’s
                usage at NRC until a replacement system is implemented. Auditors
                identified the following shortcomings with regard to ACCESS and
                related badge accountability processes:

                (A)      Weaknesses exist concerning system user access.
                (B)      The system contains inaccurate data.
                (C)      Badge accountability measures are inadequate.
                (D)      System documentation is incomplete or missing.
                (E)      TTC lacks a backup power supply for ACCESS.

                These problems exist because concerns about ACCESS are
                overshadowed by the agency’s plan to replace the system as part
                of its HSPD-12 solution. Left unaddressed, however, these
                weaknesses undermine the effectiveness of NRC’s physical
                security approach to control access into and within NRC facilities.

      A. Weakness Exist Concerning System User Access

                ACCESS does not fully employ the user access controls identified
                in Management Directive and Handbook (MD) 12.5, “NRC
                Automated Information Security Program.” Specifically, in
                headquarters and a field office, several people share one user ID,3
                2 of 11 headquarters users have inappropriate access to the
                system, and a majority of the headquarters users have been
                granted the highest level of system access. Noncompliance with
                MD 12.5 has occurred because there is no routine review of the
                user access, limitations exist with one site’s version of ACCESS,
                and DFS staff cannot easily define or differentiate the difference
                among ACCESS user roles. Without adequate user access
                controls, security information is vulnerable to errors or misuse.

                System Requirements

                MD 12.5 details the requirements and responsibilities for protection
                of information and information systems. Specifically, MD 12.5
                Appendix A, “NRC Systems Development and Maintenance
                Security Controls,” provides guidance for information system



3
  A user ID is a unique symbol or character string that an individual uses to log on to an
information system.
                                                 5
                                                              Audit of NRC’s Badge Access System



                owners. Two security areas that must be addressed when
                implementing or upgrading an information system are (1)
                identification and authentication and (2) discretionary access.

                Identification and authentication controls provide the capability to
                establish, maintain, and protect a unique ID and password for each
                authorized user. MD 12.5 Appendix A states that user IDs must be
                issued on a one-to-one basis, meaning each system user must
                have his or her own unique ID.

                Discretionary access controls allow the administrator to configure
                the system to ensure that authenticated users can access and
                perform operations on only the system resources for which they
                have authorization. MD 12.5 Appendix A states that access control
                lists should be used to designate which users have specific
                permissions. A related concept is the principle of least privilege,
                which MD 12.5 defines as the practice of restricting user access to
                data files and levels of access (e.g., read, write, delete) to the
                minimum amount necessary for job performance.

                Inappropriate System Access

                ACCESS does not fully employ the user access controls identified
                in MD 12.5 Appendix A. Specifically, in headquarters and a field
                office, several people share one user ID, 2 of 11 headquarters
                users have inappropriate access to the system, and a majority of
                the headquarters users have been granted the highest level of
                system access.

                Auditors identified two situations where more than one person uses
                ACCESS through the same user ID. In one case, a single user ID
                is used by seven headquarters security guards, five of whom work
                at a particular post in the Central Alarm Station. This post is
                responsible for monitoring physical security and handling
                headquarters security issues and officers, who cover the post at
                different times of the day, can use the common ID to perform tasks
                in ACCESS. A sixth officer who shares the common ID uses
                ACCESS each week to disable temporary badges that were loaned
                but not returned. In the other case, which occurred at a field office,4
                two users share a common user ID on that site’s version of
                ACCESS. These individuals share an office and job responsibilities
                related to ACCESS.



4
 Auditors also found sharing of IDs in another field office, but this issue was addressed in a
separate Office of the Inspector General audit on computer security (OIG-06-A-15, dated July 11,
2006).
                                               6
                                         Audit of NRC’s Badge Access System



Auditors interviewed 22 system users in headquarters and at NRC
field offices to determine whether (1) they truly need access to the
system and (2) their assigned system role was appropriate. A
system role is assigned to each user’s login ID and illustrates what
level of system rights (read, write, delete) that individual should
have.

Most users were appropriately given access to the system.
However, 2 out of 11 individuals on the headquarters user list
should not have access to the system. One individual, who
formerly required system access as part of a prior job assignment,
no longer required such access because of a promotion that
occurred about 2 years ago. The other individual given access
inappropriately was a DFS contractor who performed overall
ACCESS system maintenance on a routine basis but was not
approved by NRC for any access to work with information
technology (IT) systems. NRC requires contractors to undergo a
specific type of background investigation before they can work with
agency IT systems, and in this case the contractor had not
undergone the necessary review.

More than half of the individuals in headquarters with system
access had system administrator rights. Of the 11 user accounts
assigned to specific individuals to gain access to the headquarters
system, 6 had the system administrator role. This level of access
allows the users to read and write all the fields, and delete records.
Furthermore, an additional two accounts with system administrator
rights were not assigned to people, but instead were reserved for
the performance of specific tasks. These accounts seem
unnecessary, given that the individuals who perform these tasks
have their own system administrator accounts associated with their
names.

No Routine Review

Access controls for ACCESS are not in compliance with MD 12.5
because there is no routine review of user access. DFS managers
did not identify a need to create separate user accounts for security
guards stationed at a particular post, and the system version in the
field office where the user ID is shared does not allow separate IDs
to be created for multiple users with the same role. In addition,
DFS staff cannot easily define or differentiate among ACCESS user
roles.




                           7
                                          Audit of NRC’s Badge Access System



Inappropriate individuals have access to the system because DFS
staff do not routinely review the user list to determine whether users
continue to need system access. In addition, without knowledge of
the different levels of access, there is no way to verify that all of the
users have the appropriate level or if their access levels need to be
adjusted.

DFS allows multiple headquarters security guards to share one
user ID because managers did not identify a need to create
separate accounts. Furthermore, a software limitation exists within
the field office using shared IDs that does not allow multiple users
to be granted the same level of access. The system administrator
in that field office decided to accept the risk of allowing two people
to share one account rather than allow one person to have more
access than their counterpart.

DFS assigns the system administrator role to most users because
staff who make such assignments cannot readily define the
different ACCESS roles but know that the system administrator role
will allow users to perform any task needed. A DFS employee
stated that identifying the limitations of the different roles has not
been a priority for the office.

System Data At Risk

Allowing individuals too much or shared access to system data
places the information in the system at risk of inadvertent or
deliberate manipulation or misuse. While a DFS manager stated
that there have been no known breaches in security, without the
proper access controls the system data and NRC security remains
vulnerable.

Recommendations

OIG recommends that the Executive Director for Operations:

1.     Perform an annual assessment of the user list for ACCESS
       and modify it appropriately in accordance with least privilege
       guidance.

2.     Require separate user IDs for each user.




                            8
                                      Audit of NRC’s Badge Access System



3.   Assess the cost-effectiveness of updating the field office’s
     version of software to allow multiple user IDs with the same
     role, and install the updated version if assessment indicates
     benefits exceed costs.

4.   Define and document user roles and associated rights.




                         9
                                                           Audit of NRC’s Badge Access System



     B. System Contains Inaccurate Data

               ACCESS contains inaccurate data pertaining to special access
               areas and the current employee population. These data
               inaccuracies exist because DFS does not impose effective quality
               assurance measures over access lists or system data. Without
               accurate information, there is the possibility of security breaches
               and ineffective control over special access areas.

               Data Requirements

               Government managers must implement effective management
               controls over their programs. Office of Management and Budget
               Circular No. A-123, “Management’s Responsibility for Internal
               Control,” states that effective internal control provides reasonable
               assurance that effective and efficient operations are being
               achieved. Management Directive 4.4, “Management Controls,”
               states that management controls should reasonably ensure
               programs achieve their intended results and that reliable and timely
               information is obtained, maintained, reported, and used for
               decisionmaking.

               ACCESS is designed to provide information on who has access to
               NRC facilities and the level of access that these individuals have.
               ACCESS information should accurately reflect the current
               employee and contractor population and their access rights.

               Data Inaccuracies

               ACCESS contains inaccurate data pertaining to (1) special access
               areas and (2) the current employee population. Specifically, people
               have inappropriate access to special access areas, former NRC
               employees remain in the system, and some field office location
               designations are inappropriate.

                            Special Access Areas

               OIG reviewed access lists5 for five special access areas in
               headquarters and found that all but one mistakenly included
               individuals who should not have access to those areas. One list,
               which allowed 52 people access, included 9 individuals who no
               longer needed access to this space. The day care center list
               included 170 names6 of individuals who no longer needed access,

5
  The lists were generated from ACCESS and show which individuals’ badges are programmed to
allow access into these special access areas.
6
  Some names were listed more than once.
                                            10
                                                               Audit of NRC’s Badge Access System



                including one employee who had not had children in the center for
                more than 4 years. A point-of-contact7 for a different special
                access area said the access list for the space had too many people
                on it because people failed to provide notification when they no
                longer needed access. This individual was working with DFS to
                remove those with inappropriate access.

                In addition, auditors learned that DFS has given nearly unrestricted
                access rights to a “super user” group of 28 individuals who are
                responsible for responding to headquarters security and facility
                emergencies and therefore need access to NRC’s special access
                areas. These “super users” – primarily staff in DFS – have access
                to almost every special access area (there is one exception) within
                NRC headquarters, and while several points-of-contact were
                generally aware of the “super user” group, they did not know how
                many individuals or who specifically had such access. One point-
                of-contact was unaware of the group entirely.

                Auditors reviewed the list of “super users,” and determined it
                contained two inappropriate people: a former Executive Director for
                Operations and a DFS contractor responsible for maintaining the
                ACCESS system.

                              Current Employee Population

                ACCESS contains former employees and incorrect location
                designations for some employees. OIG reviewed ACCESS data to
                determine whether (1) employees who had left NRC during a 3-
                month period had been removed from the headquarters system at
                the end of the 3 months (2) employees who had transferred
                between NRC locations during this period were accurately reflected
                in the data, and (3) data corrections provided by one field office to
                headquarters were incorporated into the headquarters system.
                This review found that 26 of 94 employees who terminated during
                the 3-month time period still had active records within ACCESS.8 In
                addition, three of the eight people who had transferred offices
                during this timeframe were recorded incorrectly within ACCESS in
                that the current duty station was incorrect and a new badge had not
                been issued to the employee that reflected the new duty station.




7
  DFS keeps a list of points-of-contact associated with each special access area. The point-of-
contact is the individual designated to communicate with DFS about changes to the special
access lists.
8
  Of the 26 individuals who terminated but had not been removed from the headquarters
ACCESS system, 17 were field office employees.
                                               11
                                                        Audit of NRC’s Badge Access System



               With regard to corrections provided by field offices, 7 of 23
               corrections requested by a field office had not been incorporated
               into ACCESS. Table 2 summarizes the results of this data
               analysis.

Table 2. Data Accuracy Assessment Results

Category              Number of Files        Number With           Error Rate
                      Checked                Errors

Terminations          94                     26                    28 %

Geographical
transfers             8                      3                     38 %

Field office
correction
requests              23                     7                     30 %

Total                 125                    36                    29 %

               Auditors also determined that two field office systems contain
               names of many former NRC employees. These field offices add
               headquarters employees to their systems when they come to the
               site for a visit/training but do not routinely remove these individuals
               when the visit/training concludes. In contrast, one field office
               described a routine, deliberate effort to remove such individuals
               after they terminate their NRC employment.

               Quality Assurance Measures Are Missing

               ACCESS data inaccuracies exist because DFS does not impose
               effective quality assurance measures over access lists or system
               data. There is no routine review of special access area lists, no
               oversight to ensure that terminated employees are removed from
               the headquarters system in a timely manner, and no written
               guidance to ensure that transfers are reflected accurately in the
               system or that field offices remove former employees from their
               systems.




                                          12
                                         Audit of NRC’s Badge Access System



            Special Access Areas

There are inappropriate people on the special access area lists
because there are no quality control steps to ensure that people are
removed from these lists. DFS staff rely on special access area
points-of-contact to keep their lists current; however, points-of-
contact have differing understandings of this responsibility.

OIG interviewed six points-of-contacts for special access areas,
half of whom did not know they could request a list of people with
access to the special access areas. One point-of-contact was
unaware of the responsibilities of being a point-of-contact. Another
point-of-contact performs quarterly checks to ensure their list is
accurate, but must proactively request their list from DFS, which
does not provide the lists unless asked.

In addition, DFS does not conduct effective reviews of its own
super user group. While a DFS employee stated that the list is
reviewed occasionally during the year, the fact that it contained two
individuals who should not be on it suggests the review is
ineffective.

            Current Employee Population

The headquarters ACCESS system does not accurately reflect the
current employee population because (1) DFS staff do not always
remove employees from ACCESS in a timely manner and (2) there
are no standard operating procedures to ensure that the correct
steps are taken in denoting regional transfers within ACCESS. The
field office ACCESS systems contain names of employees who no
longer work for the agency because there is no guidance instructing
these offices to remove former employee names.

Risk of Security Breaches

Without accurate information, there is the possibility of security
breaches and ineffective control over special access areas. By
allowing people to have inappropriate access to special access
areas, there is no guarantee that only the correct people have
access to protected space. Having unnecessary names in the
system also means the database does not reflect the current
population, which could create confusion for DFS employees or
security guards who generate temporary badges for employees.
Having accurate data will be essential if any of this information will
be used in the new HSPD-12 system or if both systems will be
maintained concurrently for any length of time.

                           13
                                         Audit of NRC’s Badge Access System



Recommendations

OIG recommends that the Executive Director for Operations:

5.    Institute quarterly quality assurance reviews of system data
      to ensure that system data is accurate with regard to special
      access areas, terminated employees, and terminated
      contractors.

6.    Conduct quarterly reviews of super user lists, modify
      appropriately, and send to special access points-of-contact.

7.    Provide official agency list of departures to all field office
      badging officials to facilitate removal of terminated
      employees.

8.    Write and implement badge access system operating
      procedures that provides system user guidance and
      incorporates the preceding three recommendations.




                           14
                                                              Audit of NRC’s Badge Access System



      C. Badge Accountability Measures Are Inadequate

                NRC lacks adequate control over temporary badges issued to staff
                and visitors, and over badges issued to contractors. Specifically,

                ¾ Temporary badges loaned to staff who forget or lose their badge
                  are not always returned the day they were issued.
                ¾ Temporary visitor badges are not inventoried and accounted for
                  on a daily basis at headquarters and three field office sites.
                ¾ Contractor badges are not always retrieved promptly or
                  deactivated once it is determined a particular contractor is no
                  longer working for NRC.

                Temporary and contractor badges are not always returned promptly
                because the agency has not asserted measures to enforce these
                requirements. Daily reconciliation of visitor badges is not
                performed at headquarters or several NRC field offices because
                NRC has not enforced this requirement. These weaknesses
                increase NRC’s risk that temporary and contractor badges will be
                misused to gain unauthorized access into NRC facilities.

                Badge Requirements

                NRC requirements pertaining to the control of employee,
                contractor, and visitor badges are included in Management
                Directive and Handbook (MD) 12.1, “NRC Facility Security
                Program,” and MD 12.3, “NRC Personnel Security Program.”
                These MDs require that:

                (1) Temporary badges assigned to employees and contractors be
                returned at the end of the work day to the guard or receptionist
                desk from which they were issued.9

                (2) Temporary badges issued to visitors be inventoried and
                accounted for on a daily basis.

                (3) NRC offices that sponsor a contractor arrange for the immediate
                return of badges and immediate written notification to DFS when
                the contractor no longer needs access to NRC facilities.




9
  MD 12.1 states that temporary badges for employees must be returned on a daily basis but
does not specifically mention contractor temporary badges. However, a DFS official stated that
the expectation is that all temporary badges issued are to be returned daily.
                                              15
                                         Audit of NRC’s Badge Access System



Badge Controls Not Imposed

NRC headquarters and three field offices do not impose daily
control requirements over temporary badges assigned to
employees, contractors, and visitors. Furthermore, contractor
badges are not always returned to NRC and DFS is not always
notified promptly when a contractor no longer needs access to NRC
facilities.

            Temporary Employee and Contractor Badges

NRC headquarters and three field offices do not assess whether
temporary employee and contractor badges are returned daily and
therefore could not provide definitive numbers concerning staff’s
failure to return badges. However, based on interviews with staff
responsible for tracking temporary badges at headquarters and all
five field office sites, auditors learned that it is not infrequent for
these badges, which allow unescorted access within NRC facilities,
to be retained for more than a day.

According to a headquarters security officer who performs weekly
inventories of the temporary badges, on average, seven or eight
temporary headquarters badges are not returned each week.
Another headquarters security officer recalled that one employee
recently returned four temporary badges that had been assigned to
this individual concurrently. At the field offices, individuals
responsible for tracking temporary badges described occasions
where they needed to contact individuals to return temporary
badges. In one region, it was reported that about two temporary
badges are lost per year while on loan to individuals and therefore
never returned.

At headquarters and each of the five field offices, staff who are
responsible for tracking temporary badges said that they attempt to
retrieve badges after determining the badges were not returned.
The number of days it takes to initiate such contact was dependent
on the frequency with which the staff reconcile the temporary
badges. At two locations, such reconciliation occurred daily; thus
retrieval efforts were timely. Retrieval efforts were less timely at the
remaining four locations where reconciliations occurred either every
few days or weekly.

At headquarters and two field offices, staff stated that they
deactivate temporary badges if they are not returned after such
retrieval efforts. Again, however, time to deactivate is dependent
on how quickly the site becomes aware it is missing.

                           16
                                                               Audit of NRC’s Badge Access System



                              Temporary Visitor Badges

                At headquarters and three field offices, temporary visitor badges
                are not inventoried and accounted for on a daily basis.
                Headquarters performs this type of inventory on a weekly basis, but
                does not follow up when these badges, which are not programmed
                to permit passage beyond a card reader, are not returned.

                At two field offices, visitor badges are tracked on a daily basis. At
                one site, an expiring paper badge system is used for visitors
                requiring escorted access.10 At a different field site, a staff member
                inventories the visitor badges daily and follows up with the NRC
                employee escort when a visitor badge is not returned.

                              Contractor Badges

                NRC project officers are not always able to retrieve contractor
                badges from contractors no longer working on an NRC contract and
                they do not always notify DFS immediately when a contractor stops
                working on the NRC contract.

                OIG contacted 11 NRC project officers11 who had experience with
                contractor badge retrieval and 7 described instances where they
                had difficulty or were unable to retrieve a contractor’s badge.
                Project officers would usually attempt to retrieve the badge
                themselves – sometimes for at least a week or two – and when
                they realized they were not going to be successful, they would
                usually notify DFS to terminate the contractor’s access. One
                individual never notified DFS that the badge had not been returned
                and another provided such notification in response to a letter DFS
                sent to all project officers inquiring about the status of their
                contractors.

                Return Requirements Not Enforced

                Temporary badges are not always returned promptly because the
                agency has not asserted measures to enforce the daily return
                requirement. For example, there is no requirement for security staff
                to account for these badges on a daily basis; therefore, a non-
                returned badge can easily remain undetected. Furthermore, the
                temporary badges are not deactivated promptly, which allows the

10
   These badges, which are assigned to individuals upon their arrival, gradually change in
appearance throughout the day. At time of assignment to a visitor, they feature the visitor’s name
in black print on a white background. After approximately 8 hours, however, diagonal pink stripes
appear clearly on the background, indicating that the person is no longer authorized as a visitor.
11
   One individual was not a project officer, but a contract technical monitor who served as the
contact person to deal with DFS on badging matters.
                                               17
                                         Audit of NRC’s Badge Access System



individual to whom such a badge was loaned to keep using it
successfully to pass through card reader control points within the
NRC facility from which it was assigned.

Daily reconciliation of visitor badges is not performed at several
NRC locations because the agency has not enforced this
requirement. Furthermore, NRC staff do not make a concerted
effort to retrieve these badges because they perceive no risk
associated with these badges, which are not programmed to allow
the holder beyond any card reader control points.

Contractor badges are not always returned promptly because there
is no contractual incentive for the contractor to return the badge.
DFS is not always notified promptly about a contractor no longer
requiring access because project officers typically try to retrieve the
badge before notifying DFS, and in cases where the badge is not
retrieved promptly, this notification is subsequently delayed.

Potential for Misuse

All NRC badges could be misused by individuals with malicious
intent who are not authorized for entry into NRC facilities. Such
individuals could use the badges to gain entry into NRC and then
move around freely within the facility to commit petty theft, cause
physical harm, or gain access to classified information.

While it is easier to envision the potential harm caused by a lost
temporary or contractor badge (which allow unescorted access), a
lost visitor badge could also be misused. Visitor badges look
similar to non-visitor badges, and someone in possession of one
could easily tailgate through a control point behind a non-visitor.
NRC needs to tighten its badge control processes to minimize its
risk of a non-authorized individual gaining access beyond NRC
control points.

Recommendations

OIG recommends that the Executive Director for Operations:

9.     Conduct daily reconciliations of temporary badges and
       disable access for badges not returned.

10.    Replace the current visitor badges with expiring paper
       badges.




                           18
                                      Audit of NRC’s Badge Access System



11.   Include clauses in new contracts imposing a financial penalty
      for badges not returned.

12.   Reiterate to NRC project officers the need to notify DFS
      immediately when a contractor no longer needs access to
      NRC facilities.




                         19
                                              Audit of NRC’s Badge Access System



D. System Documentation Is Incomplete or Missing

       NRC has not adhered to agency listed system security
       requirements for ACCESS or followed up on penetration testing
       results. This is because the Office of Information Services (OIS)
       and DFS do not view fulfillment of these requirements as a priority
       given that (1) ACCESS is a legacy system unlikely to attain
       certification and accreditation and (2) a Government-wide
       interoperable solution is expected to replace ACCESS in FY 2009.
       Without following security requirements, NRC has limited
       assurance that ACCESS is adequately protected against
       unauthorized access or other misuse. In addition, ACCESS system
       owners and users are unable to locate relevant information when
       needed.

       IT Security Requirements

       NRC guidance requires the implementation of administrative,
       technical, and physical security measures appropriate for the
       protection of NRC information and information systems.
       Furthermore, it is prudent for agency managers to follow up on
       reports that identify IT system weaknesses.

                    Listed System Requirements

       According to MD 12.5, listed systems such as ACCESS must have
       the following:

       Inclusion in the OIS master system inventory. This is an overall
       listing of all NRC information technology systems.

       System security plan. This plan addresses the system’s
       functionality, production environment, and security controls and
       countermeasures to prevent or detect a security incident or mitigate
       the impact of a security breach. This plan should also include
       procedures for training individuals permitted system access,
       procedures for monitoring the effectiveness of security controls,
       and provisions for continuity of operations in the event of system
       disruption or failure.




                                 20
                                                                  Audit of NRC’s Badge Access System



                 Information system security officer (ISSO). The ISSO is a
                 trusted position with special access to and authority for a system.
                 Responsibilities include developing and monitoring the system’s
                 security rules of behavior and other security controls, ensuring that
                 the certification and accreditation process is completed, ensuring
                 that system security program reviews and periodic security testing
                 are completed, and ensuring that the status of remediation activities
                 are tracked and reported until completion.

                 Certification and accreditation (C&A). This process is defined in
                 footnote 1. The C&A process for listed systems is also fulfilled
                 when the OIS authorizing official issues an interim authority to
                 operate (IATO).12

                               Addressing Identified Weaknesses

                 Management followup to address report findings and
                 recommendations is a prudent management best practice.
                 Following up on security related reports helps managers identify
                 risks and subsequently determine the acceptable level of risk to
                 ensure that adequate security is maintained.

                 NRC Has Not Met Requirements

                 NRC has not (1) adhered to agency listed system security
                 requirements for ACCESS or (2) followed up on penetration testing
                 results.

                               Listed System Requirements Not Fulfilled

                 ACCESS appears on the agency’s master systems inventory but
                 does not adhere to the other listed system requirements specified
                 in MD 12.5. ACCESS lacks the following:

                 ¾ System Security Plan
                 ¾ Information System Security Officer
                 ¾ Certification and Accreditation




12
   An IATO is issued if, after assessing the results of the security certification, the authorizing
official deems that the risk to agency operations, assets, or individuals is not fully acceptable, but
there is an overarching mission necessity to place the information system into operation or
continue its operation. The duration established for an IATO should be commensurate with the
risk to agency operations, agency assets, or individuals associated with the operation of the
information system. When the security-related deficiencies have been adequately addressed, the
IATO should be lifted and the information system authorized to operate.
                                                 21
                                                                 Audit of NRC’s Badge Access System



                                   System Security Plan

                  Despite MD 12.5 requirements, OIS has not approved and DFS has
                  not written a current system security plan. A DFS employee
                  provided auditors with an inadequate and outdated ACCESS
                  security plan that contains the following discrepancies:

                  ¾ Lacks key information such as the date, approval, and author.
                  ¾ Incorrectly categorizes ACCESS as a major application.
                  ¾ Does not base its information sensitivity categorization on
                    current criteria.
                  ¾ Does not address the controls in place that pertain to the
                    ACCESS stand-alone components that are located in the NRC
                    field offices.

                  DFS staff were unable to provide clarifying information regarding
                  this security plan, other than acknowledging that it was obsolete.
                  One DFS employee recalled drafting this version of the security
                  plan a long time ago and providing it to an OIS13 employee for
                  review. OIS provided feedback, which was incorporated by DFS
                  and returned to OIS. However, at that point, the employee recalled,
                  correspondence ended and OIS never provided further feedback.

                                   Information System Security Officer

                  NRC has not appointed an ISSO for ACCESS as required by MD
                  12.5. Although several staff are involved with responsibilities
                  concerning the management and operation of ACCESS, the system
                  roles have not been clearly defined. Several individuals conveyed
                  that they have key roles and responsibilities that are similar to
                  those of an ISSO. For example, one DFS employee claimed to be
                  the system point-of-contact, while an employee in the Office of
                  Administration claimed responsibility for handling office IT issues
                  and performing troubleshooting activities related to ACCESS. This
                  employee also claimed to share the ISSO role with another Office
                  of Administration employee; however, there was no indication that
                  this was an official assignment.

                                 Periodic Certification and Accreditation

                  ACCESS has not been certified and accredited in accordance with
                  MD 12.5. Although an agency official document states that in FY
                  2005, ACCESS had an interim authority to operate, the agency
                  could not provide any documentation supporting this status. OIS
                  and DFS employees were unable to provide the ACCESS interim

13
     OIS was formerly named the Office of the Chief Information Officer.
                                                 22
                                       Audit of NRC’s Badge Access System



authority to operate memorandum or any documentation that would
have been reviewed in order to grant the interim authority to
operate.

            No Follow Up on Penetration Testing Results

OIS conducted a penetration test on ACCESS in the fall of 2005
and provided the results to DFS with the expectation that the
weaknesses would be addressed. However, DFS did not address
the reported weaknesses and OIS did not follow up to ensure that
the weaknesses were addressed.

Requirements Not Given Priority

OIS and DFS managers have not expended resources to complete
listed system security requirements for ACCESS or correct the
weaknesses identified in the penetration test results because
managers do not view these actions as a priority. Management
officials representing OIS and DFS have expressed that resources
are not being expended on ACCESS given that 1) ACCESS is a
legacy system unlikely to attain certification and accreditation and
2) a Government-wide interoperable information technology
solution is expected to replace ACCESS within the next 2 to 3
years.

OIG acknowledges that it would not be cost-effective to implement
the full scope of security controls for ACCESS; however, certain
controls are essential to mitigate risks associated with the system.
NRC needs to pursue the cost-effective controls and document why
other controls will not be pursued at this time.

Limited Assurance of Protection

Without adhering to NRC system security requirements and
following up on penetration testing results, NRC has limited
assurance that the system is sufficiently protected against
unauthorized access, use, disclosure, disruption, modification, or
destruction of information and property. In addition, ACCESS
system owners and users are unable to locate relevant information
when needed.




                          23
                                     Audit of NRC’s Badge Access System



Recommendations

OIG recommends that the Executive Director for Operations:

13.   In accordance with NRC requirements for listed systems,
      develop an ACCESS system security plan and appoint an
      Information System Security Officer.

14.   Develop documentation to support the ACCESS interim
      authority to operate.

15.   Complete the actions necessary to address the ACCESS
      weaknesses contained in the penetration test report.




                        24
                                              Audit of NRC’s Badge Access System



E. TTC Lacks Backup Power Supply for ACCESS

      TTC’s card reader contingency plan in the event of a power failure
      is workable, but causes unnecessary security risks. Under this
      plan, each employee is assigned a metal key that unlocks doors
      that are also controlled by ACCESS card readers. By replacing the
      metal keys assigned to each TTC employee with a backup power
      supply to support ACCESS in the event of a power failure, NRC
      can reduce the chance that keys will be lost and used to gain
      unauthorized access to TTC facilities. In addition, reliance on the
      card readers will allow a more accurate record of access within
      TTC facilities.

      Backup Power Benefit

      It is important from a security perspective to have an ACCESS
      contingency plan in place to use if electricity fails. Contingency
      plan elements can include coverage at control points by security
      guards, an uninterrupted power supply that would allow continued
      coverage by ACCESS during a power outage, and keys that staff
      would use if the uninterrupted power supply failed.

      TTC Lacks Backup Power

      TTC’s contingency plan is workable, but causes an unnecessary
      security risk. To deal with power failures that occur periodically at
      TTC, the approximately 30 staff are assigned regular metal keys,
      as well as key cards, and either will work to gain entry into and
      within TTC facilities. If a metal key is lost, which happened
      recently, all locks at TTC must be rekeyed. Furthermore, the metal
      key is a standard key that can easily be copied by a locksmith.

      In contrast, two of NRC’s regional offices that have uninterruptable
      power supplies also assign metal keys to certain staff to be used if
      there is a complete power failure. In one region, the keys will not
      work unless there is such a failure. In the other region, usage of
      the keys in the absence of a complete power failure triggers an
      alarm.

      Keys Used Instead

      Staff are given metal keys as a backup to use in the event of power
      failure at TTC because the facility lacks an uninterrupted backup
      power supply that would activate during a power outage.



                                25
                                        Audit of NRC’s Badge Access System



Security Is Weakened

By relying on standard metal keys as a backup to TTC’s badge
reader system, the agency risks that keys will be lost or duplicated
and used to gain unauthorized access to TTC facilities.
Furthermore, because employees always have the option to
override ACCESS by using a key for entry, the agency lacks an
accurate record of access into and within TTC facilities. Replacing
the metal keys with an uninterruptible power supply backup will
enhance security at TTC and reduce the burden on staff who
perform quarterly inventories of the keys assigned to TTC
employees.

Recommendations

OIG recommends that the Executive Director for Operations:

16.   Assess the cost effectiveness of providing power backup for
      the TTC badge access system.

17.   Alternatively, limit distribution of keys to a smaller number of
      TTC staff and use security keys that cannot easily be
      duplicated.




                          26
                                            Audit of NRC’s Badge Access System



IV. AGENCY COMMENTS

       At an exit conference held December 19, 2006, agency managers
       agreed with the audit findings and recommendations and provided
       comments concerning the report. We modified the report as we
       determined appropriate. NRC opted not to submit formal written
       comments to this final version of the report.




                               27
                                                Audit of NRC’s Badge Access System



V. CONSOLIDATED LIST OF RECOMMENDATIONS

      1.    Perform an annual assessment of the user list for ACCESS and
            modify it appropriately in accordance with least privilege
            guidance.

      2.    Require separate user IDs for each user.

      3.    Assess the cost-effectiveness of updating the field office’s
            version of software to allow multiple user IDs with the same role,
            and install the updated version if assessment indicates benefits
            exceed costs.

      4.    Define and document user roles and associated rights.

      5.    Institute quarterly quality assurance reviews of system data to
            ensure that system data is accurate with regard to special
            access areas, terminated employees, and terminated
            contractors.

      6.    Conduct quarterly reviews of super user lists, modify
            appropriately, and send to special access points-of-contact.

      7.    Provide official agency list of departures to all field office
            badging officials to facilitate removal of terminated employees.

      8.    Write and implement badge access system operating
            procedures that provides system user guidance and addresses
            the preceding three recommendations.

      9.    Conduct daily reconciliations of temporary badges and disable
            access for badges not returned.

      10.   Replace the current visitor badges with expiring paper badges.

      11.   Include clauses in new contracts imposing a financial penalty for
            badges not returned.

      12.   Reiterate to NRC project officers the need to notify DFS
            immediately when a contractor no longer needs access to NRC
            facilities.

      13.   In accordance with NRC requirements for listed systems,
            develop an ACCESS system security plan and appoint an
            Information System Security Officer.


                                   28
                                            Audit of NRC’s Badge Access System



14.   Develop documentation to support the ACCESS interim
      authority to operate.

15.   Complete the actions necessary to address the ACCESS
      weaknesses contained in the penetration test report.

16.   Assess the cost effectiveness of providing power backup for the
      TTC badge access system.

17.   Alternatively, limit distribution of keys to a smaller number of
      TTC staff and use security keys that cannot easily be
      duplicated.




                             29
                             Audit of NRC’s Badge Access System




[Page intentionally left blank.]




              30
                                                 Audit of NRC’s Badge Access System


                                                                       Appendix A
SCOPE AND METHODOLOGY

       Auditors evaluated NRC’s badging and card reader system to
       determine whether the system meets its required operational
       capabilities and provides for the security, availability, and integrity
       of the system data.

       The Office of the Inspector General audit team reviewed relevant
       criteria, including NRC MD 12.5, “NRC Automated Information
       Security Program,” MD 4.4, “Management Controls,” MD 12.1,
       “NRC Facility Security Program,” and MD 12.3, “NRC Personnel
       Security Program.” Other relevant criteria related to the
       management controls required for the badge access system
       includes Office of Management and Budget Circular No. A-123,
       “Management’s Responsibility for Internal Control.”

       Auditors interviewed Office of Administration and OIS staff to learn
       their roles and responsibilities as they pertain to ACCESS.
       Auditors also interviewed TTC, regional, and headquarters staff
       with roles in NRC’s badging process to assess their understanding
       of the process and assess whether their day-to-day activities are
       conducted in accordance with requirements.

       Auditors reviewed the badging process as implemented in
       headquarters, regional offices, and the TTC to assess whether the
       NRC’s process and procedures met system security objectives.
       Auditors also reviewed and analyzed system data concerning
       access rights and entry into special access building areas.

       This work was conducted from May 2006 through October 2006, in
       accordance with generally accepted Government auditing
       standards and included a review of management controls related to
       the audit objective. The work was conducted by Beth Serepca,
       Team Leader; Judy Gordon, Audit Manager; Vicki Foster, Senior
       Management Analyst; and Rebecca Underhill, Auditor.




                                   31
